            Office of Inspector General




November 4, 2004

EDUARDO H. RUIZ
MANAGER, SANTA ANA DISTRICT

SUBJECT: Audit Report – Self-Service Vending Program – Santa Ana District
         (Report Number DR-AR-05-007)

This is one of a series of audit reports on the Self-Service Vending Program in the
Pacific Area. The report presents the results of our self-initiated audit on the
Self-Service Vending Program in the Santa Ana District (Project Number
04YG016DR001). The information in this district report will be included in a report
to the Pacific Area Vice President.

                                                Background
The Self-Service Vending Program, implemented in October 1964, is one of the Postal
Service’s major programs. It provides Postal Service customers with a convenient
alternative for purchasing stamps and other basic Postal Service products after
business hours and without the need to stand in line during business hours.

Nationwide, the Postal Service maintains approximately 30,000 vending
machines (27,000 self-service postal centers and 3,000 other types of vending
equipment) that generated over $1.9 billion in revenue during fiscal years (FY) 2001
through 2003. During FY 2003, the Pacific Area had 3,325 pieces of vending
equipment that generated over $145 million in revenue, of which the Santa Ana District
maintained 12 percent (413) of the total area machines that generated over 23 percent
($32.7 million) of the total area vending revenue. During the first quarter of FY 2004,
the Pacific Area had 3,395 pieces1 of vending equipment that generated over
$37.3 million in revenue, of which the Santa Ana District maintained 12 percent (414) of
the total area machines that generated over 23 percent ($8.7 million) of the total area
vending revenue.




1
 During the first quarter of FY 2004, the Pacific Area had 70 additional vending machines and the Santa Ana District
had 1 additional vending machine.

    1735 N Lynn St.
    Arlington, VA 22209-2020
    (703) 248-2100
    Fax: (703) 248-2256
Self-Service Vending Program –                                                                  DR-AR-05-007
 Santa Ana District



                           Objective, Scope, and Methodology
The objective of our audit was to determine whether the Self-Service Vending Program
is effectively and efficiently meeting program goals of increasing revenue and reducing
operating costs. Specifically, in this review, we determined whether Self-Service
Vending Program managers have effectively redeployed vending equipment that does
not meet minimum revenue requirements in order to maximize revenue, and
discontinued the use of obsolete vending equipment. We also physically observed a
judgmental sample of 20 vending machines to determine whether the machines were
operational and easily accessible. For the 413 vending machines operating in the
Santa Ana District in FY 2003, 112 were classified as obsolete based on Postal Service
guidance, while the remaining 402 were classified as current equipment. For the
first quarter of FY 2004, 414 vending machines were operating in the Santa Ana District,
of which 123 were classified as obsolete, and the remaining 402 were classified as
current equipment.

During our audit, we visited Postal Service facilities; interviewed managers and
employees; reviewed documentation and applicable policies and procedures; and
analyzed data in the Postal Service’s Vending Equipment Sales and Service System
(VESS) for FY 2003 and the first quarter of FY 2004 to identify obsolete equipment and
equipment that did not meet the minimum revenue requirements.4 Although we relied
on data obtained from VESS, we did not test the validity of the data and controls over
the system.

Audit work associated with the Santa Ana District was conducted from March through
October 2004, in accordance with generally accepted government auditing standards
and included such tests of internal controls as were considered necessary under the
circumstances. We discussed our observations and conclusions with appropriate
management officials and included their comments, where appropriate.

                                      Prior Audit Coverage
The Office of Inspector General (OIG) has issued three reports related to the objective
of this audit.

Self-Service Vending Program - Tennessee District (Report Number DR-AR-04-003,
June 30, 2004), Self-Service Vending Program - Alabama District (Report Number
DR-AR-04-004, June 30, 2004), and Self-Service Vending Program - Atlanta District
(Report Number DR-AR-04-002, July 1, 2004). The reports stated that district officials

2
  This number includes one currency changer that does not generate revenue. The remaining 10 obsolete machines
generate revenue.
3
  This number includes one currency changer that does not generate revenue. The remaining 11 obsolete machines
generate revenue.
4
  Obsolete equipment was not included in the minimum revenue analysis.




                                                     2
Self-Service Vending Program –                                                                         DR-AR-05-007
 Santa Ana District


could improve their process for redeploying vending equipment that does not meet
minimum revenue requirements. In FY 2003, 54 percent (857 of 1,573 machines) of the
vending machines in the Tennessee, Alabama, and Atlanta Districts did not meet the
minimum revenue requirements and the districts may have missed revenue
opportunities of approximately $2.7 to $8.5 million by not redeploying this equipment.
Additionally, these districts continued to use 250 obsolete machines and possibly
incurred maintenance and repair expenses. Management agreed with all
recommendations and the actions taken and planned were responsive to the
recommendations.

                                               Audit Results
Opportunities exist for Santa Ana District officials to improve the effectiveness and
efficiency of the Self-Service Vending Program and to meet or exceed program goals of
increasing revenue and reducing operating costs. Specifically, Santa Ana District
officials could increase revenue opportunities by redeploying equipment that does not
meet minimum revenue requirements. Further, Santa Ana District officials could
possibly reduce maintenance and repair costs by discontinuing the use of obsolete
equipment. However, our physical observation of vending machines in the Santa Ana
District indicated that overall the machines were operational and easily accessible.

Redeployment of Vending Equipment

Santa Ana District officials could improve their process for redeploying vending
equipment that does not meet Postal Service minimum revenue requirements.
Specifically, during FY 2003, our review of the vending equipment revenue reports
indicated that 26 percent (106 of the 402 machines) of the vending machines did not
meet the minimum revenue requirements. Vending equipment sales were
approximately $2.1 million, which was significantly less than the minimum revenue
requirement of $4.1 million. As a result, the Santa Ana District may have missed
revenue opportunities of approximately $600,000 to $1.9 million by not redeploying
this equipment.5

Additionally, during the first quarter of FY 2004, our review of the vending equipment
revenue reports indicated that 26 percent (103 of the 402 machines) of the vending
machines did not meet the minimum revenue requirements. Vending equipment sales
were approximately $513,000, which was significantly less than the minimum revenue


5
  For each vending machine, we calculated the shortfall in revenue compared to the established minimum for a
particular machine type and referred to this shortfall as “missed revenue opportunities.” The $600,000 represents the
minimum total possible missed revenue opportunities after giving consideration to Postal Service guidance, which
requires district officials to review revenue reports and take appropriate actions if a vending machine’s revenue does
not reach plan in three to six accounting periods. The $1.9 million represents the maximum total possible missed
revenue opportunities for the FY 2003 and is calculated by subtracting actual revenues generated from the total of all
machine minimum revenue requirements.




                                                        3
Self-Service Vending Program –                                                                         DR-AR-05-007
 Santa Ana District


requirement of $909,000. As a result, the Santa Ana District may have missed revenue
opportunities of approximately $396,000 by not redeploying this equipment.

One of the Self-Service Vending Program’s goals is to increase revenue through the
redeployment of equipment. The Postal Service should redeploy equipment that does
not meet minimum revenue requirements to other locations. Postal Service policy,
Handbook PO-102, Self-Service Vending Operational and Marketing Program,
Chapter 2, Section 256, May 1999 (updated with Postal Bulletin revisions through
December 25, 2003), establishes the minimum revenue requirements for vending
machines. The district retail office is responsible for evaluating equipment revenue to
find the right location for the right machine. If self-service vending equipment is located
in an area where it is unable to generate revenue to meet the minimum requirement, the
equipment must be considered for redeployment. If revenue does not meet the
minimum requirement in three to six accounting periods, the district retail office should
place the equipment on a list for redeployment; notify any office where changes will be
made; prepare a typewritten or computer-generated notice, approved through the
district retail office, to be posted in the lobby informing customers 30 days before
removing the equipment; and complete Postal Service Form 4805, Maintenance Work
Order, and move the equipment to a better location.

District officials took action to redeploy two vending machines that did not meet
minimum revenue requirements during FY 2003. 6 For the remaining 104 machines,
district officials did not initiate any redeployment action. Additionally, during the
first quarter of FY 2004, district officials did not initiate any redeployment actions for the
103 underperforming machines. District officials did not initiate any redeployment action
for the underperforming vending machines during FY 2003 and the first quarter of
FY 2004 because of concern for the potential adverse impact on customer service due
to the nonavailability of machines. District officials indicated that the required
replacement equipment needed for the redeployable locations, have not yet been
allocated to the district location. In addition, due to the consolidation of Pacific Area
Districts in FY 2003, the Santa Ana District received 20 underperforming machines from
another district. By not taking action to redeploy underperforming equipment, the
district could miss revenue opportunities during the remainder of FY 2004.

District officials also expressed concern regarding the Postal Service’s methodology to
establish minimum revenue requirements, and that the current requirements are too
high in relation to the machines geographic locations. We plan to forward the district’s
concern to Postal Service Headquarters.

We discussed the results with Santa Ana District officials and they agreed that they
could improve their redeployment process for equipment that does not meet the Postal
Service’s minimum revenue requirements. District officials plan to reassess vending


6
 Our review of the revenue reports for the first quarter of FY 2004 indicated that this machine’s revenue did meet
minimum revenue requirements.




                                                        4
Self-Service Vending Program –                                                                   DR-AR-05-007
 Santa Ana District


machine locations based on trend analysis of historical vending data and receipt of
73 automated postal centers.7

Recommendation

We recommend the Manager, Santa Ana District, direct the Retail Manager to:

1. Continue to review revenue reports to identify underperforming equipment, notify
   postmasters of vending equipment that generates low revenue; and, giving
   consideration to all feasible alternatives, complete all necessary actions to redeploy
   underperforming equipment as often as possible.

Management’s Comments

Management agreed with the recommendation and has initiated steps to identify
underperforming equipment through the use of the Equipment Relocation Analysis
Report (ERA) and Performance Analysis Vending Report from the VESS. Management
will issue low revenue generation letters to postmasters with underperforming
equipment by October 15, 2004, and follow with work orders to assure maximized
redeployment. Additionally, all retail supervisors will attend four sessions of mandatory
retail training that includes vending program requirements. The last training session will
be conducted on September 24, 2004. Management provided an addendum to their
comments stating that not all multi-commodity machines should be relocated based on
location, customer demographics, and minimal debit/credit card usage when customers
may not benefit from automated postal centers.

Additionally, management expressed concerns regarding the total number of vending
machines and revenue generated as identified in this report. Management stated that
the Santa Ana District had 380 vending machines instead of 402 in FY 2003 based on
their review of the ERA report from VESS. Management also stated that total revenue
was $33 million instead of $2.1 million in FY 2003, based on their review of the
Performance Analysis Minimum Vending Report from the VESS. Management’s
comments, in their entirety, are included in the appendix of this report.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendation. Management’s
planned actions should correct the issues identified in the finding. Regarding
management concerns of our data for total vending machines and revenue, the
difference is due to the data source and the methodologies used to arrive at the totals
for the Santa Ana District. The vending universe of 380 machines was based on the
Equipment Relocation Analysis Report, which excluded 8 obsolete machines and
25 current machines, which were included in VESS and identified in the vending
7
 Automated postal centers are a newly developed kiosk that provides convenient 24-hour automated access to
purchase stamps as well as many premium delivery services such as Express and Priority Mail.




                                                     5
Self-Service Vending Program –                                                                DR-AR-05-007
 Santa Ana District


revenue reports data provided by district officials to the OIG in April 2004. The total
revenue of $33 million was based on the entire vending machine universe, while the
$2.1 million was based solely on the revenue generated for the underperforming
machines included as part of the universe.

Use of Obsolete Equipment

In FY 2003, Santa Ana District officials continued to use 108 obsolete machines and
possibly incurred maintenance and repair expenses, even though Postal Service policy
discontinued the maintenance and repair support for the machines in June 2000.9 Our
review of vending equipment revenue reports indicated that 60 percent (6 of the
10 machines) of the vending machines did not meet minimum revenue requirements
during FY 2003. During the first quarter of FY 2004, district officials continued to use
1110 obsolete machines, of which 7 (64 percent) of the 11 machines did not meet the
minimum revenue requirements.

District officials stated that they continued to use and maintain the obsolete equipment
because of the potential adverse impact on customer service. As a result, during
FY 2003 and the first quarter of FY 2004, the district possibly incurred maintenance and
repair expenses that may have exceeded the revenue generated by continuing to
operate and maintain the obsolete machines. We were unable to determine the amount
of repair and maintenance expenses associated with the machines because the Postal
Service does not capture the data for each machine.11

Periodically, the Postal Service lists vending equipment as obsolete, meaning that the
equipment has exceeded its expected life cycle and will no longer receive support from
maintenance organizations. All inactive retail vending equipment items must be
reported to the district material management specialist. When retail vending equipment
items are obsolete or listed as excess, the Postal Service may consider them for
disposal action. Parts from obsolete machines may be salvaged and stored for
maintenance or repair of other compatible equipment. In June 2000, Postal Service
policy listed the obsolete vending equipment that should no longer receive support from
maintenance organizations.

By continuing to use and maintain obsolete machines, the district will incur repair and
maintenance costs that may exceed the revenue generated. We recognize
management’s desire to provide customer service; however, because the Postal
Service does not capture repair and maintenance, management has no means of
assessing whether the benefits of operating the obsolete equipment outweigh the cost


8
  This number does not include one change machine that does not generate revenue.
9
  This policy supplements Maintenance Management Order, MMO-018-96, June 21, 1996, Discontinuance of Support
for Obsolete Vending Machines. This MMO includes discontinuance of support for recently obsolete models of
vending machines announced in the Material Logistics Bulletin (MLB-PP-00-004), issued on May 18, 2000.
10
   This number does not include one change machine that does not generate revenue.
11
   We plan to address this issue in a capping report to Postal Service Headquarters officials.




                                                    6
Self-Service Vending Program –                                                DR-AR-05-007
 Santa Ana District


to operate it. District officials plan to replace the obsolete machines when the new
automated postal center machines are deployed to the district location.

Recommendation

We recommend the Manager, Santa Ana District, direct the Retail Manager to:

2. Consider all feasible alternatives, and complete all necessary actions to eliminate
   repair and maintenance cost for the obsolete equipment.

Management’s Comments

Management agreed with the finding and recommendation and stated work orders were
initiated in March 2004 to remove the obsolete machines; however, delays occurred due
to the deployment of 73 automated postal centers from April through July 2004.
Management stated nine obsolete machines have been removed as of September 15,
2004. The remaining two machines cannot be removed. One machine is imbedded in
marble at a historical site and the other machine is located in a hotel and will be
removed at the owner’s expense in one to two years.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendation. Management’s
planned actions should correct the issues identified in the finding.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG request written confirmation when
corrective action(s) are completed. These recommendations should not be closed in
the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Debra D. Pettitt, Director,
Delivery and Retail, or me at (703) 248-2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachment




                                           7
Self-Service Vending Program –       DR-AR-05-007
 Santa Ana District


cc: Alfred Iniguez
    Florinda M. Bailey
    Karen A. Doyle
    Kathleen S. Miller
    Steven R. Phelps




                                 8
Self-Service Vending Program –                           DR-AR-05-007
 Santa Ana District


                       APPENDIX. MANAGEMENT’S COMMENTS




                                   9
Self-Service Vending Program –        DR-AR-05-007
 Santa Ana District




                                 10
Self-Service Vending Program –        DR-AR-05-007
 Santa Ana District




                                 11
Self-Service Vending Program –        DR-AR-05-007
 Santa Ana District




                                 12
Self-Service Vending Program –        DR-AR-05-007
 Santa Ana District




                                 13
Self-Service Vending Program –        DR-AR-05-007
 Santa Ana District




                                 14
